APPENDIX

1a
APPENDIX A
Filed: 2/13/2020
NOT TO BE PUBLISHED
IN OFFICIAL REPORTS
IN THE COURT OF APPEAL OF THE STATE OF
CALIFORNIA
FIRST APPELLATE DISTRICT
DIVISION FIVE
FACEBOOK, INC. et al.,
Petitioners,

A157143

v.
THE SUPERIOR COURT
FOR THE CITY AND
COUNTY OF SAN
FRANCISCO,

(San Francisco
County
Super. Ct. Nos.
13035658/13035657)

Respondent;
DERRICK D. HUNTER et
al.,
Real Parties in Interest.
Real parties in interest Derrick D. Hunter and
Lee Sullivan (defendants) were indicted on murder,
weapons, and gang-related charges stemming from a
drive-by shooting. Each defendant served a subpoena duces tecum on one or more of the petitioners, social media providers Facebook, Inc., Instagram, LLC,
and Twitter, Inc. (collectively, providers), seeking

2a
both public and private communications from the
murder victim’s and a prosecution witness’s accounts. Providers, none of whom are parties to the
underlying criminal case, repeatedly moved to quash
the subpoenas on the ground that the federal Stored
Communications Act (Act; 18 U.S.C. § 2701 et seq.)
barred them from disclosing the communications
without user consent. In the challenged order, the
trial court concluded that the Act must yield to an
accused’s due process and confrontation rights, denied the motions to quash, and ordered providers to
produce the victim’s and witness’s private communications for in camera review. Providers seek a writ
of mandate directing respondent court to quash the
subpoenas.
We conclude the trial court abused its discretion.
The record does not support the requisite finding of
good cause for production of the private communications for in camera review. Accordingly, we grant
the petition and direct the trial court to quash the
subpoenas.
BACKGROUND
A.
Subject to limited exceptions, the Act prohibits
electronic communication service providers from
“knowingly divulg[ing]” the contents of a user communication. (18 U.S.C. § 2702(a)(1)-(2), (b)-(c); accord, Facebook, Inc. v. Superior Court (Hunter)
(2018) 4 Cal.5th 1245, 1262, 1264-1265 (Hunter II).)
Disclosure is authorized if it is made “with the lawful
consent of the originator or an addressee or intended
recipient of such communication.”
(18 U.S.C.
§ 2702(b)(3); Hunter II, supra, at p. 1265.) Other ex-

3a
ceptions are provided for disclosures made to government entities pursuant to a warrant, court order,
or a subpoena. (18 U.S.C. § 2703(a)-(c).) It is undisputed that the Act prohibits the providers from producing private communications to a nongovernmental entity without the user’s consent.
(Hunter II, supra, at pp. 1250, 1290; 18 U.S.C.
§ 2702(a)(1)-(2), (b)(3).) However, the Act allows a
provider to divulge information about a subscriber,
other than the contents of the communications, “to
any person other than a governmental entity.” (18
U.S.C. § 2702(c)(6).)
The Act “protects individuals’ privacy and proprietary interests [and] reflects Congress’s judgment
that users have a legitimate interest in the confidentiality of communications in electronic storage at a
communications facility.” (Theofel v. Farey-Jones
(9th Cir. 2004) 359 F.3d 1066, 1072–1073.) Congress
also sought to encourage the use and development of
new technologies by “significantly limit[ing] the potential onus on providers by establishing a scheme
under which a provider is effectively prohibited from
complying with a subpoena issued by a nongovernmental entity—except in specified circumstances.”
(Hunter II, supra, 4 Cal.5th at p. 1290, italics omitted.)
B.
In June 2013, Jaquan Rice, Jr., was killed and
B.K., a minor, was seriously injured in a drive-by
shooting. The car used in the shooting was identified
by surveillance video. The video shows the two
shooters in the rear passenger seats. The driver of
the vehicle was not visible on the video. Witnesses

4a
provided inconsistent descriptions of the driver’s
gender.
Within minutes, police stopped prosecution witness Renesha Lee driving the car used during the
shooting. She was its sole occupant. Lee and Sullivan had been dating at that time. When interviewed
by police that day, Lee initially “just made up names
and stuff.” Eventually she told the police that
Hunter and his younger brother were among those
who had borrowed her car. Lee did not mention Sullivan’s name until sometime later when she “ ‘told
them the truth’ ”—that Sullivan had been involved
along with Hunter and his brother. Although Lee
told police she had not been in the car at the time of
the shooting, one witness identified her as the driver.
The police obtained search warrants directed at
Rice’s Facebook and Instagram accounts. 1 The prosecution later shared with the defense information obtained from some (but possibly not all) of Rice’s social
media accounts. The police did not seek search warrants as to Lee.
When questioned by police, Hunter’s 14-year-old
brother confessed to the shooting. He told police he
shot Rice because Rice had repeatedly threatened
him, both in person and in social media postings on
Facebook and Instagram. Rice also had “tagged” the
boy in a video on Instagram that depicted guns.
Providers asked us to take judicial notice of the warrants.
We deny the request because providers have not shown the
warrants were before the trial court. (Brosterhous v. State Bar
(1995) 12 Cal.4th 315, 325 [reviewing courts need not take judicial notice of evidence not before trial court].)
1

5a
Hunter’s brother was ultimately tried in juvenile
court.
In presenting the case against defendants to the
grand jury, the prosecution contended defendants
and Hunter’s brother were members of Big Block, a
criminal street gang, and that Rice was killed because he was a member of a rival gang, West Mob,
and because Rice had publicly threatened Hunter’s
brother on social media. Defendants were charged
with the murder of Rice and the attempted murder of
B.K. (Pen. Code, §§ 187, 664.) 2
C.
Before trial, in 2014, Sullivan’s counsel served
subpoenas duces tecum (§ 1326, subd. (b)) on Facebook, Instagram, and Twitter, seeking records from
their social media accounts. As to Facebook and Instagram, the subpoenas sought “[a]ny and all public
and private content,” including user information, associated email addresses, photographs, videos, private messages, activity logs, posts, location data,
comments, and deleted information for accounts belonging to Rice and to Lee. Defendants’ subpoenas to
Twitter sought similar information as to Lee only.
To authenticate the requested records, Sullivan’s
subpoenas also sought the identity of each providers’
custodian of records.
D.
Providers moved to quash defendants’ subpoenas, asserting the Act (18 U.S.C. § 2702(a)(1)-(2))

2

Undesignated statutory references are to the Penal Code.

6a
bars them from disclosing any communication
(whether configured as public or private) and that no
exceptions applied. Defendants implicitly accepted
providers’ conclusion that the Act barred providers
from complying with the subpoenas but nonetheless
argued compliance was required because the Act violated their rights under the Fifth and Sixth Amendments to the United States Constitution. Sullivan
pointed out Lee was the only witness who implicated
him in the shootings. The trial court (Honorable
Bruce E. Chan) accepted the defendants’ constitutional argument, denied providers’ motions to quash,
and ordered providers to produce the requested
communications for in camera review.
Providers sought, and this Division issued, a stay
of that order. A different panel of this court concluded the Act barred enforcement of defendants’ subpoenas and rejected defendants’ arguments that the
Act, as applied pretrial, violated their rights under
the Fifth and Sixth Amendments to the federal Constitution. (Facebook, Inc. v. Superior Court (Hunter)
(2015) 240 Cal.App.4th 203, 215-221, judg. vacated
and cause remanded by Hunter II, supra, 4 Cal.5th
at p. 1291.)
Our Supreme Court granted defendants’ petition
for review. In Hunter II, supra, 4 Cal.5th 1245, the
court concluded the Act’s lawful consent exception
(18 U.S.C. § 2702(b)(3)) allowed providers to disclose
communications configured by a user to be public.
subpoenas were unenforceable under the Act “with
respect to communications addressed to specific persons, and other communications that were and have
remained configured by the registered user to be restricted.” (Id. at p. 1250.) Because production of

7a
public communications could obviate the need for
additional communications, and because the trial
court did not develop an adequate record on alternative ways to obtain communications, the Hunter II
court declined to address the parties’ constitutional
arguments and remanded the matter to the trial
court. (Id. at pp. 1250-1251, 1275-1276.)
In particular, the Hunter II court observed: “[I]n
the lower court proceedings the parties did not focus
on the public/private configuration distinction. The
trial court made no determination whether any
communication sought by defendants was configured
to be public (that is, with regard to the communications before us, one as to which the social media user
placed no restriction on who might access it) or, if initially configured as public, was subsequently reconfigured as restricted or deleted. Nor is it clear that
the trial court made a sufficient effort to require the
parties to explore and create a full record concerning
defendants’ need for disclosure from providers—
rather than from others who may have access to the
communications. Consequently, at this point it is not
apparent that the court had sufficient information by
which to assess defendants’ need for disclosure from
providers when it denied the motions to quash and
allowed discovery on a novel constitutional theory. In
any event, because the record is undeveloped, we do
not know whether any sought communication falls
into either the public or restricted category—or if
any initially public post was thereafter reconfigured
as restricted or deleted. [¶] In light of our interpretation of the Act, it is possible that the trial court on
remand might find that providers are obligated to
comply with the subpoenas at least in part. Accord-

8a
ingly, although we cannot know how significant any
sought communication might be in relation to the defense, it is possible that any resulting disclosure may
be sufficient to satisfy defendants’ interest in obtaining adequate pretrial access to additional electronic
communications that are needed for their defense.
For these reasons, we will not reach or resolve defendants’ constitutional claims at this juncture.”
(Hunter II, supra, 4 Cal.5th at pp. 1275-1276, italics
added, fn. omitted.)
E.
On remand, the trial court heard renewed motions to quash the pretrial subpoenas. Following
Hunter II, the Honorable Tracie Brown ruled that
the Act prohibited pretrial disclosure of private
communications. Judge Brown also ordered Twitter
to produce public content to the clerk under seal and
scheduled an evidentiary hearing to address Facebook’s and Instagram’s argument that producing
public content would be unduly burdensome.
In reaching these conclusions, Judge Brown rejected the providers’ argument that defendants could
not subpoena public content from third parties unless there was no other way to obtain it. She also rejected providers’ argument that the court could order
the prosecutor to issue a search warrant: “[A] warrant can only issue when there’s probable cause that
evidence of a crime can be found in the location to be
searched which is plainly not the situation here.”
However, Judge Brown made clear that the viability
of alternatives to the providers’ production of private
content was to be considered at trial.

9a
F.
In 2019, after Judge Brown was elevated to the
court of appeal, the case was assigned to the Honorable Charles Crompton for trial. Providers renewed
their motions to quash the subpoenas to the extent
defendants continued to seek disclosure of restricted
or private content from Rice’s or Lee’s accounts. Sullivan opposed the motions, contending that, now that
the case was in a trial posture, his federal due process rights prevailed over users’ privacy rights. Sullivan also argued the safe harbor provision (18
U.S.C. § 2707(e)(1)) gave providers a complete defense to any liability under the Act. 3
Sullivan filed a declaration under seal that provided further detail on the defense theory—that restricted communications were needed to demonstrate
Lee’s bias stemming from her jealousy over Sullivan’s involvement with other women and/or a motive
to protect herself from criminal liability for the
shootings. Sullivan provided examples of postings on
what he claimed to be Lee’s Twitter account, such as
a photograph of Lee holding a gun and making specific threats. Providers countered that defendants’
constitutional arguments were not ripe because any
restricted information from Lee’s account could be
obtained from Lee herself, either voluntarily or as
compelled by the trial court, or from the recipients of
her communications.
“[G]ood faith reliance on . . . [¶] a court warrant or order . . .
[¶] is a complete defense to any civil or criminal action brought
under this chapter.” (18 U.S.C. § 2707(e)(1); accord, McCready
v. eBay, Inc. (7th Cir. 2006) 453 F.3d 882, 892.)
3

10a
G.
At hearings in March and May 2019, Judge
Crompton indicated he was considering the matter
as if it involved trial subpoenas (even though new
subpoenas had not been served). By May 1, providers had produced all responsive public communications to the court, but they had not yet been reviewed
by the trial court or by defense counsel. Providers
withdrew their argument that producing private
communications would be unduly burdensome.
Judge Crompton denied the providers’ motions to
quash and ordered them to produce responsive private communications to the court for in camera review (the May 1 order). He explained that defendants’ Sixth Amendment and due process rights were
“very important” and that he was unaware of any viable alternatives “for obtaining this information in
the form and the manner, and [with] the authenticity
guarantees that the defendants would need it.” He
added, “to the extent there’s any weighing that can
be done with the withdrawal of the burden argument, I think that these rights are important enough
in this particular case, as I’ve said, given the relevance of electronic messages that’s been raised in
this particular case, with these particular charges
and these particular defendants, it would certainly
outweigh any . . . burden [incurred by providers].”
H.
Providers filed a petition for writ of mandate in
this court and sought a stay of the production order.
We initially stayed the production order pending
consideration of the petition. After reviewing the
briefs we requested, we dissolved the stay and issued

11a
an order to show cause why the relief requested in
the petition should not be granted. (See Pugliese v.
Superior Court (2003) 146 Cal.App.4th 1444, 1448;
Omaha Indemnity Co. v. Superior Court (1989) 209
Cal.App.3d 1266, 1274.) Defendants filed a return to
the order to show cause and providers filed a reply.
Providers also stated they would not produce private
communications, as ordered by the trial court, because they believed compliance would violate the
Act.
DISCUSSION
Defendants argue the trial court’s May 1 order is
correct because the Act violates the federal Constitution to the extent it precludes a criminal defendant
from obtaining impeachment evidence or other information material to the defense. We need not
reach the constitutional arguments. We agree with
providers that the May 1 order should be vacated “for
the same reasons that the [Hunter II court] remanded this case in 2018.” Defendants have not yet presented a ripe conflict between the federal Constitution and the Act. (See Hunter II, supra, 4 Cal.5th at
p. 1275, fn. 31 [ “ ‘[W]e do not reach constitutional
questions unless absolutely required to do so to dispose of the matter before us’ “].) Because it did not
adequately consider the appropriate factors, including alternatives that would avoid a constitutional
conflict, the trial court abused its discretion when it
found good cause to issue the May 1 order. (See
John B. v. Superior Court (2006) 38 Cal.4th 1177,
1186 [abuse of discretion standard applies to discovery orders].)

12a
A.
In Hunter II, our Supreme Court declined to address the same constitutional arguments at issue
here (albeit raised pretrial) because the conflict potentially could be obviated by providers’ production
of public communications or by obtaining private
communications through alternative means. (Hunter
II, supra, 4 Cal.5th at pp. 1275-1276.)
In a footnote at the very end of the opinion, immediately after our Supreme Court concluded the
providers’ undue burden argument was best addressed on remand, Hunter II states, “The trial court
on remand might also consider two additional and
somewhat related legal issues . . . (1) whether a trial
court may compel a witness to consent to disclosure
by a provider, subject to in camera review and any
appropriate protective or limiting conditions; and
(2) whether a trial court may compel the prosecution
to issue a search warrant under the Act, on behalf of
a defendant.” (Hunter II, supra, 4 Cal.5th at p. 1291,
fn. 47, italics added.)
Defendants attempt to dismiss our Supreme
Court’s concerns altogether. Specifically, they argue
consideration of alternative sources became a moot
issue when providers waived their argument that
production of private content would be unduly burdensome. Defendants are wrong. Hunter II and other authorities make clear that these factors are part
of the defendants’ good cause showing. (See, e.g.,
Hunter II, supra, 4 Cal.5th at pp. 1275, 1290, 1291,
fn. 47.)
When a criminal defendant requests document
discovery from a third party, the third party re-

13a
sponds by delivering the materials to the clerk of the
court. (Pen. Code, § 1326, subds. (b)-(c); Evid. Code
§ 1560, subd. (b); Kling v. Superior Court (2010) 50
Cal.4th 1068, 1074.) “[T]he court may order an in
camera hearing to determine whether or not the defense is entitled to receive the documents.” (Pen.
Code, § 1326, subd. (c).) “Th[ese] restriction[s] maintain[] the court’s control over the discovery process,
for if the third party ‘objects to disclosure of the information sought, the party seeking the information
must make a plausible justification or a good cause
showing of need therefor.’ ” (Kling, supra, 50 Cal.4th
at pp. 1074-1075.) “Of course, any third party or entity—including a social media provider—may defend
against a criminal subpoena by establishing that, for
example, the proponents can obtain the same information by other means, or that the burden on the
third party is not justified under the circumstances.”
(Hunter II, supra, 4 Cal.5th at p. 1290, italics added.)
To support the latter proposition, our high court
cited City of Alhambra v. Superior Court (1988) 205
Cal.App.3d 1118, 1134 (City of Alhambra), which
discusses factors a trial court must consider and balance when deciding whether a defendant may obtain
discovery of police reports that might lead to third
party culpability evidence. (Id. at p. 1134.) “Specifically, the court should review (1) whether the material requested is adequately described, (2) whether
the requested material is reasonably available to the
governmental entity from which it is sought (and not
readily available to the defendant from other
sources), (3) whether production of the records containing the requested information would violate
(i) third party confidentiality or privacy rights or

14a
(ii) any protected governmental interest, (4) whether
the defendant has acted in a timely manner,
(5) whether the time required to produce the requested information will necessitate an unreasonable
delay of defendant’s trial, (6) whether the production
of the records containing the requested information
would place an unreasonable burden on the governmental entity involved and (7) whether the defendant has shown a sufficient plausible justification for
the information sought.” (Ibid., italics added and internal citations omitted; cf. Delaney v. Superior
Court (1990) 50 Cal.3d 785, 809-814 [describing similar factors to be balanced when trial court determines whether accused’s due process right overcomes
immunity created by state newsperson’s shield law].)
Accordingly, the trial court should have considered these factors, to the extent they are relevant,
before finding good cause.
B.
Turning to the factors, we conclude that the trial
court did not adequately explore them, particularly
options for obtaining materials from other sources,
prior to issuing its order. Thus, the trial court
abused its discretion.
Judge Crompton was principally focused on defendants’ justification for seeking the private communications. Defendants did make some attempt to
respond to the Hunter II court’s record development
concerns—by filing a sealed declaration from Sullivan’s counsel. The sealed declaration sufficiently
identifies at least one possible direct message (purportedly originating from Lee) potentially relevant to
show her bias. (See Evid. Code, § 780.) Thus, the

15a
first (adequate description of material) and final
(plausible justification for request) factors weigh in
favor of the trial court’s ruling.
With respect to the second factor (availability of
material via alternative sources), Judge Crompton
found, “for reasons that I think we’ve discussed before,” defendants had no viable alternatives to obtain
the private social media communications they
sought. The record does not support this finding.
Preliminarily, providers maintain the “availability via alternative sources” factor is of elevated importance in this context—where the Act bars only
one source of discovery in certain circumstances, rather than an entire category of evidence—under the
principle of constitutional avoidance. They emphasize that if the documents an accused seeks are reasonably available elsewhere (or from the providers
with user consent), the Act cannot possibly conflict
with the accused’s constitutional rights by prohibiting him from obtaining them.
(See 18 U.S.C.
§ 2702(b)(3) [consent may be given by “an addressee
or intended recipient of such communication”];
Hunter II, supra, 4 Cal.5th at pp. 1275, 1290; Facebook, Inc. v. Superior Court (2017) 15 Cal.App.5th
729, 745, fn. 6 (Touchstone), rev. granted Jan. 17,
2018, S245203 [“we fail to see how the [Act] impacts
his right to present a complete defense where the evidence he seeks is available through the victim”].) We
anticipate our high court will soon specify the precise
role this factor plays in Touchstone. Here, however,
we need not decide whether it serves as a threshold
requirement or just one of several factors to be balanced because, even under a balancing test, we con-

16a
clude the trial court gave this factor (and others) inadequate attention.
We are now concerned primarily with Lee’s private communications, not Rice’s. It was undisputed
below that defendants already had access to at least
some of Rice’s private communications, which the
People obtained via warrant. Yet, in these writ proceedings, defendants failed to address the need for
further discovery (from providers) of Rice’s private
content, even after we sought supplemental briefing
requesting support for the trial court’s May 1 order.
By failing to brief the issue, defendants concede providers’ entitlement to relief as to Rice’s accounts.
As to alternative ways to obtain private communications from Lee, we agree with the trial court that
ordering the People to issue a search warrant was
not a viable alternate route to obtain the identified
private content. (See § 1525 [“A search warrant cannot be issued but upon probable cause, supported by
affidavit”]; Illinois v. Gates (1983) 462 U.S. 213, 238
[probable cause means “a fair probability that contraband or evidence of a crime will be found in a particular place”].)
However, we reject Sullivan’s assertion that it
would be futile to try to obtain the communications
from Lee because (Sullivan presumes) she will invoke the Fifth Amendment. This is speculation.
When the trial court entered its May 1 order, Sullivan had shown no recent effort to subpoena Lee, and
Lee had not taken the stand. Moreover, the trial
court should have considered whether it could order
Lee to consent to disclosure by providers. (See
Hunter II, supra, 4 Cal.5th at p. 1291, fn. 47; Touch-

17a
stone, supra, 15 Cal.App.5th at p. 746, rev. granted
[“the trial court can order the account holder to consent to the disclosure by Facebook under section
2702(b)(3)”].)
Furthermore, Sullivan fails to explain why he
cannot obtain either consent to the providers’ production or the private communications themselves
directly from the recipient of Lee’s messages. In the
sealed declaration, Sullivan’s defense counsel identifies the recipient of a key communication by name.
If a recipient consents to production of private content by providers (who have preserved the content of
Lee’s account), both the conflict with the Act and Sullivan’s concerns regarding authentication and spoliation are avoided. (18 U.S.C. § 2702(b)(3); Touchstone, supra, 15 Cal.App.5th at p. 737, rev. granted
[“under section 2702(b)(3), anyone can seek the contents of private electronic communications by obtaining the consent from the originator of the communication . . . , or any addressee or intended recipient of
the communication” (italics added)].)
Finally, the trial court made no effort to evaluate
Sullivan’s continuing need for private content after
the public content was produced. On May 1, neither
the trial court, nor defense counsel, had reviewed the
public in camera production. The sealed declaration
from Sullivan’s counsel was filed almost two months
before the May 1 hearing. Thus, it was impossible
for defense counsel to reassess Sullivan’s need for
Lee’s private communications in light of what had
already been produced. In other words, we do not
know whether providers had already produced the
key communication identified in the sealed declaration, or comparable communications, as part of their

18a
public production. We question how the trial court
could properly balance all the good cause factors, including Lee’s privacy interests and the other policies
served by the Act, without any review of what had
already been produced.
In sum, the trial court did not follow our Supreme Court’s instructions to consider all the relevant factors (Hunter II, supra, 4 Cal.5th at pp. 12751276, 1290) and, instead, appears to have focused
solely on Sullivan’s justification for discovery. The
trial court abused its discretion in finding good cause
to order providers to produce private content from
Rice’s and Lee’s accounts for in camera review. We
need not address the parties’ additional arguments.
DISPOSITION
Let a peremptory writ of mandate issue directing
the superior court to vacate its May 1, 2019 order
and to enter a new and different order granting providers’ motion to quash.

19a
_____________
BURNS, J.
WE CONCUR:
__________________________
JONES, P. J.
__________________________
SIMONS, J.

20a
APPENDIX B
IN THE SUPREME COURT OF
THE STATE OF CALIFORNIA
FACEBOOK, INC., and
TWITTER, INC.,
Petitioners,
v.
SUPERIOR COURT FOR
THE CITY AND COUNTY
OF SAN FRANCISCO,
Respondent;
DERRICK D. HUNTER
and LEE SULLIVAN,

No.
California Court of
Appeal, First Appellate
District, Division 5
No. A157143
San Francisco Superior
Court
Nos. 13035657 and
13035658

Real Parties in
Interest.
PETITION FOR REVIEW* 4
Petition for Review After a Decision
By the Court of Appeal, First District, Division Five
Bicka Barlow
SBN 178723
*

All typographical errors in the original filing are
reprinted without alteration in this Appendix.

21a
2358 Market Street
San Francisco CA 94113
(415) 553-4110
Susan Kaplan
SBN 57445
214 Duboce Avenue
San Francisco, CA 94103
(415) 271-5944
Attorneys for Real Party in Interest Lee Sullivan
*

*

*

22a
IN THE SUPREME COURT OF
THE STATE OF CALIFORNIA
FACEBOOK, INC., and
TWITTER, INC.,
Petitioners,
v.
SUPERIOR COURT FOR
THE CITY AND COUNTY
OF SAN FRANCISCO,
Respondent;
DERRICK D. HUNTER
and LEE SULLIVAN,

No.
California Court of
Appeal, First Appellate
District, Division 5
No. A157143
San Francisco Superior
Court
Nos. 13035657 and
13035658

Real Parties in
Interest.
PETITION FOR REVIEW
INTRODUCTION
Real Party, Lee Sullivan, petitions this Court to
review the decision of the First District Court of Appeal, Division Five via an unpublished decision (Petition for Review, Exhibit A, 1 hereinafter Slip Opinion)

The exhibit attached to this Petition shall be referred to as
Petition Exhibit A. The exhibits submitted to the Court of Appeal will be referred to simply as Exhibit with the Court of Appeal exhibit letter and page number.
1

23a
quashing Real Parties subpoena duces tecum served
in this case on Petitioners Facebook and Twitter.
In this case, Real Party Sullivan served a subpoena duces tecum on Facebook 2 and Twitter (hereinafter, Service Providers) for the public and private
posts of key prosecution witness Rensha Lee as well
as the decedent Jaquan Rice. Service Providers
moved to quash the subpoenas. That motion was denied in 2015, and production ordered by the trial
court. The denial of the subpoena wound its way up
to this Court, resulting in the opinion of Facebook v
Superior Court (Hunter) (2018) 4 Cal. 5 th1245
(Hunter II), holding that Service Providers were covered by the Stored Communications Act (SCA 18
U.S.C § 2702 et seq.)
This Court in Hunter II, concluded that the
SCA’s lawful consent exception (18 U.S.C.
§ 2702(b)(3)), allowed Service Providers to produce
communications that were configured as public by
the user. (4 Cal.5th at 1274). This Court remanded
the matter to the trial court. (Id. at 1250-51, 127576). In Hunter II, this Court suggested in a footnote
that “the trial court might also consider two additional but somewhat unrelated legal issues that have
been only generally alluded to in the court’s order in
Facebook, Inc., v. Superior Court (Touchstone) (2017)
15 Cal.App.5th 729, 223 Cal.Rptr.3d 660 (S245203).”
(Hunter II, supra, 4 Cal.5th at 1291, n. 47 [emphasis
Three subpoenas were served in 2015 on Facebook, Instagram and Twitter. Facebook and Instagram are now a single
entity and will be referred to simply as Facebook in this Petition.
2

24a
added].) The two additional issues were “(1) whether
a trial court may compel a witness to consent to disclosure by a provider, subject to in camera review
and any appropriate protective or limiting conditions; and (2) whether a trial court may compel the
prosecution to issue a search warrant under the Act,
on behalf of a defendant.” (Id.)
After voluminous briefing and argument, the Respondent Court denied Service Providers’ motion to
quash the subpoena duces tecum for and ordered
production (May 1, 2019 Ex. 11.) Service Providers’
filed a writ of mandate/prohibition in the Court of
Appeal. The Court of Appeal stayed Respondent
Court’s production order. (May 9, 2019). Real Parties filed a return to the writ. After an additional
round of briefing, the Court of Appeal dissolved the
stay, denied the writ, and ordered the production of
the subpoenaed records (July 1, 2019). Despite dissolving the stay, the Court of Appeal retained the
matter for further consideration. Service Providers
then filed a writ of mandate in this Court which issued a stay and requested informal briefing (Case
No. S256686, July 3, 2019). On July 17, 2019, this
Court denied the writ and dissolved the stay. 3

Once the stay was dissolved by this Court, the Respondent
Court ordered production of the private posts, the only remaining outstanding requests. Service Providers refused to comply,
and Respondent Court issued an order of contempt against the
Service Providers. Service Providers filed a writ of mandate in
the Court of Appeal (Case No. A157902) which summarily denied the writ (July 30, 2019). Service Providers then filed a writ
of mandate in this Court (Case No. S257385) which was summarily denied September 11, 2019.
3

25a
On February 13, 2020, the Court of Appeal, issued a written, unpublished opinion (Pet. Ex A, Slip
Opinion), granting Service Providers motion to quash
holding that Respondent Court abused its discretion
by not fully considering all alternative means of production and by not reviewing previously produced
public posts of the key witness Renesha Lee, prior to
order production of private posts.
ISSUES PRESENTD FOR REVIEW
1. Did Court of Appeal apply the wrong standard of
review when it applied a de novo review and did not
defer to the findings of fact in assessing whether the
Respondent Court had substantial evidence that the
alternative sources of a subpoena to Renesha Lee,
forcing her consent or subpoenas to those who Lee
shared private posts, were not viable?
2. Was the Respondent Court’s denial of the motion
to quash and subsequent order, arbitrary and capricious?
3 Did the Court of Appeal apply the wrong standard when it applied a strict alternative source analysis to the proceedings in the Respondent Court, contrary to the holding in Delaney v Superior Court
(1990) 50 Cal. 3d 785, 811-12?
4. Did the Court of Appeal consider an argument
that had been waived by Service Providers when
they failed to object to the Respondent Court issuing
its ruling on the motion to quash without having reviewed public content to assess if it satisfied the
needs of Real Party?

26a
WHY REVIEW SHOULD BE GRANTED
Real Party requests this Court review the matter
to settle an important question of law (Cal. Rule of
Court 8.500(b)(1)), concerning the proper regarding
criminal defendants access to material evidence held
by Service Providers based on an assertion of Constitutional due process rights and because the Court of
Appeal, applied a strict alternative source analysis
which this Court found improper in criminal proceedings. This is an important question that is likely to
recur and directly impacts Real Party’s access to relevant and material evidence in his criminal case.
STATEMENT OF FACTS
Real Party, Lee Sullivan was charged with Pen.
Code, §§ 187, 664/187, 186.22(b)(1), 12022(a),
12022.53(d) & (e)(1). A grand jury heard evidence
regarding these charges on December 10, 2013; December 12, 2013; December 13, 2013; December 17,
2013; and December 19, 2013.
On June 24, 2013, at 12:55 pm, a green Ford Escape, rented by the prosecution’s star witness,
Renesha Lee (aka Nina Lee, Nesha Lee, Neesha
Lee), passed by a bus stop located at the intersection
of Westpoint and Middleburg Streets in San Francisco. Shots were fired from inside the vehicle by two
shooters. Jaquan Rice, Jr., (aka “Pistol Poppin
Dutch”) was killed and his girlfriend, Ms. K, was seriously injured. Ms. K did not see who shot her. Ms.
Lee’s vehicle was identified by surveillance video and
stopped by San Francisco police at 1:02 p.m, seven
minutes after the shooting occurred at the intersection of George Court and Ingalls. Ms. Lee was alone
in the car. Although the videos of the scene captured

27a
the shooting, no arrests were made because of the
poor film quality. The videos show one individual
wearing a light-colored hooded sweatshirt, shooting a
hand gun from the rear window of the driver’s side.
A second individual wearing a black hat, jacket, and
pants, exited the rear passenger side door and shot a
handgun with a large magazine attached, from behind the rear of the vehicle. The driver was not visible because the window was rolled up.
Quincy H., who was 14 years-old, confessed to
the shooting when detained by police after several
eyewitnesses identified him as one of the shooters.
Quincy H. told the officers that he shot Mr. Rice because Mr. Rice repeatedly threatened him at his job,
at his home, and on social media including Facebook
and Instagram. Mr. Rice tagged Quincy H. and others in a video with guns in it on Instagram which
scared Quincy. He believed Mr. Rice would kill him
if he did not act first. Quincy told police that Derrick
Hunter was the getaway driver, but that Mr. Sullivan was not in the car when the shooting occurred.
He identified the other shooter as “Johnson.”
Renesha Lee is Mr. Sullivan’s ex-girlfriend and
the only witness that connects him to the shooting.
Ms. Lee gave a multitude of disparate accounts about
what transpired when she was interrogated by the
police in the months following the June 24, 2013,
shooting. She initially told police that a person she
identified as “Man Man” and three male companions
approached her shortly after shots were fired to get
them away from the scene. However, on August 10,
2013, when the police threatened to charge her with
murder if she did not implicate Mr. Sullivan, Ms. Lee
said Mr. Sullivan was with Quincy and Derrick

28a
Hunter when they borrowed her car and dropped her
off at her home a few minutes before the shooting.
Ms. Lee has at all times denied being in the car when
the shooting occurred despite that she was in the only person in the car when it was stopped, and several
percipient witnesses told the police a woman was
driving the car when shots were fired.
None of the percipient witnesses at the bus stop
placed Mr. Sullivan in the vehicle or near the crime
scene when the shooting occurred. At the grand jury
hearing, the prosecution’s gang expert, Leonard
Broberg, of San Francisco Police Department’s Gang
Task Force, relied heavily on social media records
the police obtained from Facebook, Instagram, and
Twitter in forming his opinion that the murder and
attempted murder was committed for the benefit of
Big Block, a criminal street gang in support of the
gang allegations alleged pursuant to Penal Code section 186.22(b)(1). The prosecution’s theory of the
case was that Mr. Sullivan and the Hunter brothers
were members of Big Block criminal gang and Mr.
Rice was killed because he was a member of rival
gang, West Mob, and because Mr. Rice publicly
threatened Quincy Hunter on social media.
Real Party Sullivan issued subpoenas for social
media posts of Renesha Lee as well as Jaquan Rice.
The subpoenas were based on information in found
by Real Party Sullivan in his investigation that Lee
had engaged in threatening and abusive private
posts on Facebook, Instagram and Twitter. Service
Providers filed a motion to quash which was denied
in 2015 and again in 2019 by Respondent Court after
a finding of materiality:

29a
And as I think I said before, it’s hard for me
to imagine a case where there’s greater
relevance imposed in a post like this. It’s
not to say that the Facebook account of a party or a defendant or a witness in every criminal case is going to be relevant or the like,
but here, I think this is a special case and
it seems to me that the Supreme Court would
recognize that.
(Ex. 1 at 38:23-39:1 [emphasis added].)
The trial court considered voluminous briefing by
both Service Providers and Real Parties and held extensive hearings on the questions posed by Hunter II
prior to reaching its ultimate determination.
Specifically, Judge Tracie Brown issued specific
rulings on a number of the open questions posed by
this Court. Judge Brown issued a ruling on the need
for Petitioners to obtain records through means other
than a subpoena to Service Providers, finding Petitioners did not need to exhaust all alternative methods and that it was one factor to be weighed.
Judge Brown considered the legal question of alternative sources and stated:
I also, I don’t agree with the providers theory
that essentially seems to point to an exhaustion of remedies type of argument. You seem
to be saying essentially that there must be no
other way for the defense to obtain the materials that they’re seeking before they can go
to you. That theme is throughout your briefs.
I don’t think that that is what the Hunter
Court actually said. I don’t think there’s any

30a
case that says that if they can obtain the information by any other means, then ipso facto you’re dead in the water. Whether they
can or not is certainly a factor to be assessed in terms of the plain balancing
test. I don’t think there’s an absolute bar on
them obtaining records from you or issuing a
subpoena to the providers if they can perhaps
get the materials in any other way. I don’t
think that your theory they basically have to
have no other way of obtaining the materials
is a valid reading of the phrase in the Hunter
dictum on which the providers seem to rely.
(Ex. 19 at 497:21-498:9 [emphasis added]; see generally Ex. 16 at 421-427.)
The matter was transferred to Judge Charles
Crompton when Judge Brown was elevated to the
Court of Appeal. Judge Crompton indicated that he
had reviewed all of the past briefings as well as
Judge Brown’s rulings which he considered binding.
(Ex. 13 at 246:2-5; see, In re Alberto (2002)102
Cal.App.4th 421, 427).) In addition to the briefing
before Judge Brown, the parties briefed the motion
to quash in the context of trial, including the application of constitutional rationales for discovery of the
subpoenaed documents of due process and confrontation (Ex. 5; Ex 2.) In addition, Real Party Sullivan
filed a declaration under seal regarding the materiality the documents. (Ex A, filed under seal.) Judge
Crompton found that the documentation sought was
material (Ex. 1 at 38:13-39:4.)
Judge Crompton also considered, and ruled on,
the issue of whether or not alternative means of ob-

31a
taining the sought documents were required and
ruled that these other options, including seeking a
warrant, were not viable (Ex. 1 at 22:13-18).
The trial court’s order was based on Petitioners’
rights under the Sixth Amendment’s Confrontation
Clause and the Fourteenth Amendment’s Due Process Clause, as described in Pennsylvania v. Ritchie
((1973) 480 U.S. 39. (Ex. 1 at 20:4-11; 38:11-12;
40:26-41:12; 4 see also Ex. 5 at 71-73.) Nothing in the
record indicates any reasonable possibility that the
witness, Renesha Lee would cooperate and turn over
her social media posts, nor is there any indication
that Real Party knew who the individuals on the receiving end of Lee’s private post other than the one
individual named in Real Parties sealed declaration.
ARGUMENT
I.

RESPONDENT COURT’S FINDINGS OF
FACT ARE ENTITLED TO DEFFERENCE
IS SUPPORTED BY SUSBSTANTAL EVIDENCE AND THE COURT DID NOT ABUSE
ITS DISCRETION

“A discovery order is normally reviewed under
the deferential abuse of discretion standard.” (Pirjada v Superior Court (2011) 201 Cal.App.4th 1074,
1085, citing John B. v. Superior Court (2006) 38
Cal.4th 1177, 1186; Krinsky v. Doe 6 (2008) 159
Cal.App.4th 1154, 1161].)

The transcript Ex 1 at 41:2 erroneously reads “Fourth”
Amendment rather than “Fourteenth.” Given that the reference is to Pennsylvania v. Ritchie, the transcript should read
“Fourteenth Amendment.”
4

32a
The abuse of discretion standard is not a unified standard; the deference it calls for varies
according to the aspect of a trial court’s ruling under review. The trial court’s findings
of fact are reviewed for substantial evidence,
its conclusions of law are reviewed de novo,
and its application of the law to the facts
is reversible only if arbitrary and capricious
(Haraguchi v Superior Court (2008) 43 Cal.4th 706,
711-12 [emphasis added].)
A reviewing court generally “will not substitute
its opinion for that of the trial court and will not set
aside the trial court’s decision unless there was ‘no
legal justification’ for the order.” (Pirjada, supra,
201 Cal.App.4th at 1085, quoting Krinskey, supra,
159 Cal.App.4th at 1161.)
The Court of Appeal failed to apply the deferential standard for both substantial evidence and abuse
of discretion.
1. Substantial Evidence
Under the substantial evidence standard of review, the record is examined through the eyes of the
factfinder, most favorably to the judgment, with the
presumptive goal of upholding whatever factual determinations the particular trier of fact was required
to make. (People v. Zamudio (2008) 43 Cal.4th 327,
357.) “On appeal, we presume that a judgment or
order of the trial court is correct, “‘[a]ll intendments
and presumptions are indulged to support it on matters as to which the record is silent, and error must
be affirmatively shown.’” (People v Giordano (2007)
42 Cal.4th 644, 665-66 (quoting Denham v. Superior

33a
Court of Los Angeles County (1970) 2 Cal.3d 557,
564), in other words, everything that can be presumed will be presumed in favor of the trial court’s
favor.
“‘On appeal all presumptions favor proper exercise’” of the trial court’s power to “ ‘judge credibility
of witnesses, resolve conflicts in testimony, weigh evidence and draw factual inferences’ ” and its “ ‘findings—whether express or implied—must be upheld if
supported by substantial evidence.’” (People v Alexander (2010) 49 Cal.4th 846, 883 (quoting People v
James (1977) 19 Cal.3d 99, 107.)
By definition, “substantial evidence” requires
evidence and not mere speculation. In any
given case, one “may speculate about any
number of scenarios that may have occurred.... A reasonable inference, however,
may not be based on suspicion alone, or on
imagination, speculation, supposition, surmise, conjecture, or guess work. [¶] ... A
finding of fact must be an inference drawn
from evidence rather than ... a mere speculation as to probabilities without evidence.”
(People v Cluff (2001) 87 Cal. App.4th 991, 1002
[quoting People v Morris (1988) 46 Cal.3d 1, 21] [emphasis original].)
In reaching its conclusion, the Court of Appeal
failed to apply the deferential standard for substantial evidence. Instead, it appears that the Court of
Appeal applied a de novo review of the factual evidence before Respondent Court on the question of alternative sources, granting no deference to Respondent Court. The Court of Appeal failed to apply the

34a
all presumptions in favor of the Respondent’s factual
determination of the viability of the alternative
means for obtaining the records sought.
As noted in the slip opinion, Judge Crompton
found that “for reasons that I think we’ve discussed
before, I don’t see any alternatives as viable for obtaining this information in the form and the manner,
and the authenticity guarantees that the defendants
would need it.” (Ex. 1 at 22:14-17.)
A.

Subpoena and Forced Consent

Judge Crompton made a determination that
based on the facts before him including the past invocation of the Fifth Amendment by Renesha Lee in
a prior proceeding, her prior testimony which could
potentially subject her to criminal prosecution for
perjury and her general uncooperativeness, that the
alternative options of directly subpoenaing her, asking her to consent, or forcing her to consent, were not
viable. This determination was supported by substantial evidence.
It is undisputed in the record before Respondent
Court that Renesha Lee was not cooperative and had
previously invoked her Fifth Amendment rights directly relating to her social media accounts (Ex. A,
filed under seal.) It is also undisputed that if Lee
were to admit ownership of the very accounts at issue here, that she could subject herself to charges of
perjury. Respondent Court engaged in a lengthy discussion with the parties on the issues of compelled
consent as well as Ms. Lee’s Fifth Amendment
rights. (Ex. 11 at 211-214, 20-23.) Respondent Court
indicated that it had reviewed Real Parties’ proffers
(Ex. 11 at 207, 16:6-21), and Respondent Court was

35a
informed that Ms. Lee asserted her Fifth Amendment rights in a separate proceeding when asked
about social media. (Pet. Ex 11 at 212, 21:19-26; at
213, 22:1-7.) Counsel for Real Party Sullivan argued:
“If Ms. Lee asserts her Fifth Amendment rights, I
think any good counsel representing her would also
tell her that she can’t sign that consent.” (Ex.
11:217:28-218:3.) Additionally, the prosecutor in the
case noted that some of his witnesses were uncooperative in the context of possible sanctions on the
government if the motion to quash were granted (Ex.
19 at 502, 43:14-20.) Under the deferential standard
for substantial evidence, the appellate court must
presume that Respondent Court considered not only
evidence before it, but also the arguments of counsel.
There is no evidence in the record that there was
any possibility that Lee would not act in accordance
with her prior behavior relating to social media and
her Fifth Amendment rights. The Court of Appeal’s
opinion that Lee would not invoke her Fifth Amendment right, is itself speculation (Pet. Ex A, Slip Opinion at 14.) There is no evidence in the record of any
contrary evidence to base this conclusion. The Court
of Appeal failed to grant Respondent Court the deference due when it made the determination based on
the law and facts, that the alternatives of a subpoena
to Lee or attempting to force her consent were not
viable options.
Respondent Court rejected the alternative
sources argument, including forcing the prosecution

36a
to issue a search warrant, 5 subpoenaing the records
directly from Lee and forcing her to consent. Because the record is silent as to Respondent Court’s
final rational for this rejection, the Court of Appeal
as well as this Court, must infer that the order is
correct and that “error must be affirmatively shown”
rather than presumed. (Giordano, supra, 42 Cal. 4th
at 665-66.) The Court of Appeal did exactly what this
Court warned of in Morris, supra, when it speculated
on other possible scenarios rather than deferring to
the factual determination of Respondent Court.
Based on these facts, the finder of fact found that
these options were not viable. This conclusion by
Respondent Court is supported by substantial evidence and it should be granted the deference that
this Court has determined applies.
B.

Recipients as Alternative Sources

The Court of Appeal also examined the issue of
obtaining private post from the recipients of Lee’s
private messages. Respondent Court had before it a
detailed deceleration filed under seal (Ex. A), laying
out the materiality of the social media sought from
Renesha Lee. This included descriptions of her conduct on social media and provided the name of one
individual who had been subject to Lee’s abusive,
threatening conduct. The declaration contains further information that this type of conduct was directed at other unnamed individuals. Again, Respondent Court had before it the evidence, uncontradicted, that Real Party had identified one individual
The Court of Appeal agreed with this aspect of Respondent
Court’s decision (Slip Opinion at 14.)
5

37a
who received threatening posts from Lee. It is not
speculation based on this record, that Real Party did
not have any further names. It is speculation based
on the part of the Court of Appeal that Real Party
knew the identity of these other individuals and thus
could directly subpoena them or seek their consent.
The Respondent Court in rejecting this option, again
was silent, other than finding it not viable. Appellate courts should apply the deferential standard laid
out in Giordano (supra, 42 Cal.4th at 665-66), and
presume the correctness of the order.
2. Abuse of Discretion
If there is substantial evidence to support the
Respondent Court’s legal ruling, then under the
abuse of discretion standard. “A trial court abuses
its discretion when its ruling ‘ “fall [s] ‘outside the
bounds of reason.’‘“” (People v Benavides (2005) 35
Cal.4 th 69, 88 [quoting People v Waidala (2000) 22
Cal.4 th 690, 714, quoting People v. DeSantis (1992)
2 Cal.4 th 1198, 1226].) An appellate court “is not
authorized to substitute its judgment for that of the
trial judge.” (People v Stewart (1985) 171 Cal.App.3d
59, 65.)
In this case, Respondent Court did not abuse its
discretion. This case was extensively briefed and argued as shown by the record submitted to the Court
of Appeal. In addition, this Court in Hunter II, gave
clear guidance to the trial court regarding what factors to assess in determining whether private and
public social media posts were subject to a defense
subpoena. As noted in Hunter II, this Court stated
in a footnote that “the trial court might also consider
two additional but somewhat unrelated legal issues

38a
that have been only generally alluded to in the
court’s order in Facebook, Inc., v. Superior Court
(Touchstone) (2017) 15 Cal.App.5th 729, 223
Cal.Rptr.3d 660 (S245203).” (Hunter II, supra, 4
Cal.5th at 1291, n. 47 [emphasis added].) The two
additional issues were “(1) whether a trial court may
compel a witness to consent to disclosure by a provider, subject to in camera review and any appropriate protective or limiting conditions; and (2) whether
a trial court may compel the prosecution to issue a
search warrant under the Act, on behalf of a defendant.” (Id.) Nothing in the Hunter II opinion suggests
that the Respondent Court must force defendant’s in
criminal proceedings to exhaust all alternative
options prior to the trial court engaging in a balancing analysis of a defendant’s due process rights
against the privacy rights of the social media user.
The Court of Appeal focused almost solely on the
question of alternative sources for production (see
supra.) As explained below, the Court of Appeal
misapplied the holding of this Court in Delaney v
Superior Court (§II, infra). Here the trial court record including briefs and transcripts, indicates that
Respondent Court considered the vast majority of the
areas delineated in Hunter II and reasonably applied
the law to the facts of the case. 6
Judge Brown in particular considered and ruled
on many factors including the application of alternative sources. On October 5, 2018, Judge Brown, after
Many of the rulings of Respondent Court are not relevant to
this petition but can be found in Real Parties Supplemental
Brief in Response to the Court’s June 21, 2019 Order
6

39a
extensive discussion, indicated that she disagreed
with the Service Providers argument that the Real
Parties needed to exhaust all remedies (Ex 19 at 497,
38:21-26.) Judge Brown further indicated that Real
Parties’ efforts would be “a factor to be assessed in
terms of the plain balancing test. I don’t think
there’s an absolute bar on them obtaining records
from you or issuing a subpoena to the providers if
they can perhaps get material another way.” (Ex. 19
at 498, 39:2-6.) Judge Brown further stated: “I don’t
think that your [Service Providers] theory they basically have to have no other way of obtaining the materials is a valid reading of the phrase in the Hunter
dictum on which the providers seem to rely.” (Ex.19
at 508, 49:6-9.) Judge Brown finalized this ruling on
November 8, 2018 (Ex. 16 at 424, 52:11-17.) Judge
Crompton explicitly stated that he had reviewed all
of the past briefings as well as Judge Brown’s rulings
which he considered binding. (Ex. 13 at 246:2-5; see,
In re Alberto (2002)102 Cal.App.4th 421, 427).) Given the record in this case and the extensive briefing
and rulings, Respondent Court applied the law, determined that Real Party had exhausted all his viable options for obtaining the private posts and messages, had made a showing of good cause and materiality appropriately applied a balancing testing taking into all of the evidence and law before and determined that the need for the private material.
II. THE COURT OF APPEAL MISAPPLIED
THE ALTERNATIVE SOURCE ANALYSIS
IN THIS CASE TO CREATE A BAR TO ENFORCEMENT OF A SUPBOENA
The Court of Appeal’s opinion is rooted in a misreading of applicable precedent from this Court,

40a
namely the analysis forth in Delaney v. Superior
Court (1990) 50 Cal.3d 785, 809-814. The Court of
Appeal applied a strict alternative source analysis,
an analysis that is disfavored in criminal proceedings.
This Court held in the context of the California
reporter shield law that “the shield law must yield to
a criminal defendant’s constitutional right to a fair
trial when the newsperson’s refusal to disclose information would unduly infringe on that right.”
(Delaney v Superior Court (1990) 50 Cal. 3d 785,
793.) The California shield law, in its current form
was enacted in 1980 with voter approval of Proposition 5, “a state constitutional amendment proposed
by the Assembly.” (Id. at 795.) The law protects a
reporter from being held in contempt for a refusal to
disclose unpublished information or the source of information. (Id.) At trial, the defendant asserted his
federal constitutional right to a fair trial in seeking
testimony of a reporter who had invoked the shield
law. (Id. at 805.)
This Court set forth a balancing test to assess
the competing interests of the reporter and the defendant’s due process rights. A criminal “defendant
must show a reasonable possibility the information will materially assist his defense. A criminal
defendant is not required to show that the information goes to the heart of his case.” (Id. at 808

41a
[emphasis original].) 7
map for trial courts:

This Court laid out a road

First, the burden is on the criminal defendant to make the required showing. Second,
the defendant’s showing need not be detailed
or specific, but it must rest on more than
mere speculation. Third, the defendant need
not show a reasonable possibility the information will lead to his exoneration. He
need show only a reasonable possibility the
information will materially assist his defense.
(Id. at 809 [citations omitted; emphasis original]).
The next step is to balance the competing interests,
which in the context of the shield law are: 1) whether the unpublished material is confidential or sensitive; 2) the interest sought to be protected by the law;
3) the importance of the information to the defendant; and 4) whether there is an alternative source.
(Id. at 810-11.) This Court noted that

The means to vindicate this due process right is found in
the right to compulsory process was “intended to permit [the
defendant] to request governmental assistance in obtaining
likely helpful evidence, not just evidence that he can show beforehand will go to the heart of his case. ‘The need to develop
all relevant facts in the adversary system is both fundamental
and comprehensive. The ends of criminal justice would be defeated if judgments were to be founded on a partial or speculative presentation of the facts. The very integrity of the judicial
system and public confidence in the system depend on full disclosure of all the facts, within the framework of the rules of evidence.’” (Id. at 808 [quoting United States v. Nixon (1974) 418
U.S. 683, 709].)
7

42a
A defendant in a given case may be able not
only to meet but to exceed the threshold “reasonable possibility” requirement. For example, he may be able to show that the evidence
would be dispositive in his favor, i.e., to use
the reporters’ phrase, that it goes to “the
heart of defendant’s case.” If so, the balance will weigh more heavily in favor of
disclosure than if he could show only a
reasonable possibility the evidence
would assist his defense.
(Id. at 811[emphasis added].) This Court also recognized that Mitchell v. Superior Court (1984) 37
Cal.3d 268, in which the “alternative-source” rule
originated, “does not mandate a rigid alternativesource requirement in criminal proceedings.” (Id.)
This Court also acknowledged that in relationship to
the alternative source rule, a “significant practical
difference” between civil and criminal proceedings
exists, namely that a criminal defendant is not afforded the ability to depose witnesses to seek information and “the economic reality of the criminal justice system is such that a criminal defendant will
generally have less opportunity than a civil litigant
to obtain information before trial.” (Id. at 812.) This
Court concluded that a “universal and inflexible alternative source requirement” in a criminal case is
inappropriate. (Id.). Rather the trial court should
consider 1) the type of information sought; 2) the
quality of the alternative source and 3) the practicality of obtaining the information from the alternate source. (Id. at 81-12-813 [emphasis added].) “In short, whether an alternative-source re-

43a
quirement applies will depend on the facts of each
case.” (Id. at 813.)
Essentially, in its holdings in Hunter II, supra,
this Court set forth a Delaney type of road map for
the Respondent Court to follow. The Respondent
Court followed the Hunter II decision when it applied
a Delaney type of balancing test to the facts of this
case.
The first two elements are easily understood: to
protect the privacy rights of the users when they post
online. The SCA creates an important safeguard
against the dissemination of private material. The
third element, the importance to the defendant, was
also assessed by the Respondent Court. The witness,
Renesha Lee, is a critical witness for the prosecution;
the only witness to place Real Party Sullivan in the
vehicle used in the shooting as well as a possible
third-party suspect. Real Party submitted a declaration under seal to the Respondent Court laying out
the defense theory as to why Lee’s social media accounts are material to the defense in this case. (Ex.
A.)
The Respondent Court in its final order made a
finding of materiality:
And as I think I said before, it’s hard for me
to imagine a case where there’s greater
relevance imposed in a post like this. It’s
not to say that the Facebook account of a party or a defendant or a witness in every criminal case is going to be relevant or the like,
but here, I think this is a special case and
it seems to me that the Supreme Court would
recognize that.

44a
(Ex. 1 at 38:23-39:1[emphasis added].) Clearly Real
Party not only met but exceeded the standard of reasonable possibility that the information will materially assist his defense.
As to the fourth and final prong of the Delaney
test, the Respondent Court considered and rejected
the alternative methods proposed by this Court
based on the law as it relates to the issue of warrants, as well as the facts as they relate to Lee. Given the facts of this case, the application of these alternatives was not only impracticable but also would
be ineffectual based on Lee’s potential exposure to
criminal charges should she take ownership of the
named social media accounts (Ex. A.) Lee’s constitutional rights under the Fifth Amendment are implicated should she be forced to consent or if she were
issued a subpoena duces tecum for her accounts.
Both avenues would require an acknowledgement by
Lee that she was in fact the owner of the accounts.
As set forth in Delaney, the Respondent Court considered the practicality of obtaining the information
from the alternate source, namely Lee as well as the
quality and nature of the material, and rejected that
avenue of obtaining the information from alternative
sources based on the facts of this case.
In its opinion, the Court of Appeal, applied a
strict alternative source analysis in direct contradiction to this Court’s precedent. The Court of Appeal
opinion creates a new hurdle for criminal defendants
in obtaining subpoenaed materials from any Service
Provider, that is not applied in any other case: that
they must exhaust all possible alternative sources
prior to having the trial court even engage in balancing the competing interests of the parties. The Court

45a
of Appeal established a new, inflexible and rigid rule
of alternative source analysis which is not found in
the case law. As this Court noted in Hunter II, a
third party “may defend against a criminal subpoena
by establishing that, for example, the proponents can
obtain the same information by other means or, or
that the burden on the third party is not justified
under the circumstances.” (4 Cal.5th 1245, 1290.)
This Court did not impose a rigid requirement that
Real Party exhaust all of other sources prior to
seeking enforcement of a subpoenas on a Service
Provider.
The precedent of Delaney is absolutely clear: the
question of alternative sources is a factual one specific for each case; in the context of criminal proceedings, the test cannot be rigid and inflexible; and it is
only one of a number of factors to be weighed, not a
rigid bar that criminal defendants must overcome.
As noted by this Court, there are practical considerations, namely that a criminal defendant is not afforded the ability to depose witnesses to seek information and “the economic reality of the criminal justice system is such that a criminal defendant will
generally have less opportunity than a civil litigant
to obtain information before trial.” (Id. at 812.)
Based on the foregoing analysis, this Court
should grant the petition for review and clarify the
application of the alternative source rule in the context of subpoenas to Service Providers.

46a
III. THE COURT OF APPEAL CONSIDERED A
LEGAL RATIONALE PUT FORWARD BY
SERVICE PROVIDERS THAT WAS NOT
RAISED IN RESPONDENT COURT AND
WAS WAIVED
1. The Court of Appeal erred when it considered the argument from Service Providers that Respondent Court abused its
discretion when it failed to re-evaluate
the need for private content after production of the public content.
In its opinion, the Court of Appeal concluded that
Respondent Court could not “properly balance all the
good cause factors” in determining whether to grant
or deny the motion to quash because it did not reevaluate the need by Real Party for private posts after the public posts were produced. (Pet. Ex A at 15.)
Because Service Providers did not object to Respondent Court’s failure to review the public content, this
objection was waived and cannot be raised on appeal.
(People v. Green (1980) 27 Cal.3d 1, 27, overruled on
other grounds in People v. Martinez (1999) 20 Cal.4th
225, 233-237 and People v. Hall (1986) 41 Cal.3d 826,
834, fn. 3.) The reasoning of this rule is to give the
opportunity to the trial court to correct the error.
(Green, supra 27 Cal.3d at 27.) In fact, during the
May 1, 2019 hearing, Service Providers when asked
directly by Respondent Court about conducting an in
camera review, declined to take a position giving Respondent Court no opportunity to correct a perceived
error.
At the time Respondent Court issued its order, it
informed the parties that it had the public records

47a
produced by Service Providers and specifically asked
counsel for Service Providers if the court needed to
conduct an in camera review of the materials (Ex. 1
at 8:12-17.) Rather than asking for such a review,
Service Providers responded: “Your Honor, I think
that’s an issue for you to decide. We’ve complied
with the Code in terms of how to get it to you and I
think it’s up to you to determine what to do with it.”
(Ex. 1 at 8:18-21.)
There was further discussion of how much private content existed in the named accounts (Ex. 1 at
15, 14-18.) Respondent Court again inquired of both
the prosecution and Service Providers if an in camera review of the produced public content was necessary to screen for “sensitive” information (Ex. 1 at
35, 35:5-17.) Again, Service Providers stated position
at that time was “the providers are agnostic on that
point.” (Ex. 1 at 35, 35:18-19.) Petitioners had multiple opportunities to request that the Respondent
Court review the public content and factor that into
its analysis and failed to do so. Petitioner cannot
now raise this novel issue on review.
In fact, in their initial filing of their writ of mandate/prohibition in the Court of Appeal, Service Providers failed to raise this as an issue. It was not until the Court of Appeal requested additional briefing,
that Service Providers for the first time raised an objection to Respondent Court’s failure to conduct an in
camera review to determine the necessity for the
production of private material (Service Providers’
Supplemental Brief in Response to the Court’s June
21, 2019 Order at 11.)

48a
Real Parties objected to this argument and requested the Court of Appeal strike this portion of
Service Providers supplemental brief on the grounds
that the argument was waived by failure to object in
the Respondent Court and that it exceeded the scope
of the Court of Appeal’s June 21, 2019 order (Real
Parties Supplemental Brief in Response to the
Court’s June 21, 2019 Order at 7-8.) It appears from
the Slip Opinion that the Court of Appeal adopted
the rationale put forward by Service Providers despite the fact that the issue had been waived in Respondent Court.
2. Assuming arguendo that the objection
was properly made, there was substantial evidence in the record that the private posts were the heart of Real Parties
subpoena
A review of the record before the Respondent
Court shows that the proffer made to Respondent
Court contained substantial evidence that private
messages were at the heart of Lee’s social media
threats. As laid out in the sealed declaration of
counsel and detailed, supra § I(1)(A), Real Party Sullivan had identified one named individual who had
received private messages from Lee as well as other
unnamed individuals who were the subject of her
private abusive posts. Furthermore, counsel for
Real Party had accessed the public posts of Lee as

49a
any other citizen could, and still sought these particular private posts. 8
Finally, such a review would be fruitless. Without knowing the content of the private posts, how
would the Respondent Court assess if the public
posts were sufficient and contained the information
sought? The normal course of review for trial court
of confidential documents is laid out in Kling v Superior Court (2010) 50 Cal.4th 1068, 1071. The trial
court upon receipt will engage in an in camera review of the materials. It is well understood that with
confidential records the trial court will release only
those records that are relevant and material and excise sensitive information that is not directly relevant to the matters at issue. From the record below,
it appears that Respondent Court intended to engage
in such a review prior to release of the public posts.
What is different here is that Service Providers refused to even produce the private materials for in
camera review, tying the hands of Respondent Court
in assessing whether the public materials were sufficient for Real Parties purpose in seeking them. In
light of the assertions of counsel for Real Party Sulli-

In addition, the production order for the private posts was
stayed by Respondent Court for Service Providers to file a writ
in the Court of Appeal (Ex. 1 at 43, 42:24-26.) The final stay in
this Court was not dissolved until July 17, 2019, giving the Respondent Court ample time to conduct its in camera review. It
is telling that once that review was completed, Respondent
Court did not alter its order even when faced with holding Service Providers in contempt for failing to produce the subpoenaed private material on July 26, 2019. Service Providers had
almost two months to request such a review and failed to do so.
8

50a
van that the posts of abusive and threatening behavior were private, the review would have been futile.
This Court should reject this portion of the Slip
Opinions reasoning because this objection was raised
in Respondent Court and therefore was waived by
Service Providers.
CONCLUSION
The Court of Appeal erred multiple times in its
analysis of Respondent Court’s denial of the motion
to quash and the order of production based on the
Sixth and Fourteenth Amendment guarantees of confrontation and due process. The Court of Appeal applied the wrong standard of review for an abuse of
discretion analysis, applied a strict alternative
source analysis specifically disfavored by this Court,
and erred in finding that Respondent Court should
have engaged in a futile in camera review of the public materials prior to ordering production of private
material because that was not raised in the Respondent Court.
Respondent Court applied the correct legal analysis to the facts of this case and did not abuse its discretion in making this order. This Court should
grant review to decide these important issues of law.
Dated:
February 24, 2020

Respectfully submitted,
/s/ Bicka Barlow
Bicka Barlow
Attorney for Real Party
in Interest
Lee Sullivan

